<html>
<title> - TV MARTI: A STATION IN SEARCH OF AN AUDIENCE?</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
             TV MARTI: A STATION IN SEARCH OF AN AUDIENCE?

=======================================================================

                                HEARING

                               BEFORE THE

SUBCOMMITTEE ON INTERNATIONAL ORGANIZATIONS, HUMAN RIGHTS AND OVERSIGHT

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 17, 2009

                               __________

                           Serial No. 111-29

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______


                  U.S. GOVERNMENT PRINTING OFFICE
50-506                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b6d1c6d9f6d5c3c5c2ded3dac698d5d9db98">[email&#160;protected]</a>  


                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ROBERT WEXLER, Florida               DONALD A. MANZULLO, Illinois
ELIOT L. ENGEL, New York             EDWARD R. ROYCE, California
BILL DELAHUNT, Massachusetts         RON PAUL, Texas
GREGORY W. MEEKS, New York           JEFF FLAKE, Arizona
DIANE E. WATSON, California          MIKE PENCE, Indiana
RUSS CARNAHAN, Missouri              JOE WILSON, South Carolina
ALBIO SIRES, New Jersey              JOHN BOOZMAN, Arkansas
GERALD E. CONNOLLY, Virginia         J. GRESHAM BARRETT, South Carolina
MICHAEL E. McMAHON, New York         CONNIE MACK, Florida
JOHN S. TANNER, Tennessee            JEFF FORTENBERRY, Nebraska
GENE GREEN, Texas                    MICHAEL T. McCAUL, Texas
LYNN WOOLSEY, California<greek-l>As  TED POE, Texas
    of 3/12/09 deg.                  BOB INGLIS, South Carolina
SHEILA JACKSON LEE, Texas            GUS BILIRAKIS, Florida
BARBARA LEE, California
SHELLEY BERKLEY, Nevada
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
                   Richard J. Kessler, Staff Director
                Yleem Poblete, Republican Staff Director
                                 ------                                

              Subcommittee on International Organizations,
                       Human Rights and Oversight

                 BILL DELAHUNT, Massachusetts, Chairman
RUSS CARNAHAN, Missouri              DANA ROHRABACHER, California
KEITH ELLISON, Minnesota             RON PAUL, Texas
DONALD M. PAYNE, New Jersey          TED POE, Texas
ROBERT WEXLER, Florida
             Cliff Stammerman, Subcommittee Staff Director
          Paul Berkowitz, Republican Professional Staff Member
                      Brian Forni, Staff Associate


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Jess Ford, Director, International Affairs and Trade Team, 
  Government Accountability Office...............................     8
Mr. Philip Peters, Vice President, Lexington Institute...........    21
John Nichols, Ph.D., Professor of Communications and 
  International Affairs, Penn State University...................    28
Mr. Tim Shamble, President, American Federation of Government 
  Employees, Local 1812..........................................    37

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Jess Ford: Prepared statement................................    10
Mr. Philip Peters: Prepared statement............................    24
John Nichols, Ph.D.: Prepared statement..........................    30
Mr. Tim Shamble: Prepared statement..............................    40

                                APPENDIX

Hearing notice...................................................    50
Hearing minutes..................................................    51
John Nichols, Ph.D.: Material submitted for the record...........    52


             TV MARTI: A STATION IN SEARCH OF AN AUDIENCE?

                              ----------                              


                        WEDNESDAY, JUNE 17, 2009

              House of Representatives,    
   Subcommittee on International Organizations,    
                            Human Rights and Oversight,    
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 3:20 p.m., in 
room 2172, Rayburn House Office Building, Hon. Bill Delahunt 
(chairman of the subcommittee) presiding.
    Mr. Delahunt. This hearing will come to order, and why 
don't I recognize the gentleman from California. Mr. Royce is 
joining us.
    I want to welcome this very distinguished panel. I think I 
know three out of the four, and on a personal basis, and 
welcome. I also note some distinguished individuals in the 
audience.
    But Mr. Royce has promised a brief and concise statement. 
It is the customary practice in this subcommittee to have no 
rules. We usually allow unlimited time, but the ranking member, 
Mr. Rohrabacher, and myself have a briefing that we must attend 
in, oh, 1 hour and 15 minutes.
    Mr. Royce.
    Mr. Royce. Thank you very much, Mr. Chairman. And I have 
long been involved in this area of trying to bolster U.S. 
international broadcasts, and it is because I believe in the 
power of ideas. I remember our former budget chairman said you 
know, Royce, these efforts are less than the cost of a fuel cap 
on a B-52. And the fact is--and it is not sanctions, it is not 
use of force, it is not the other issues we have hotly 
debated--it is promoting the free flow of information. It is a 
way of supplying close insiders with information for those who 
are toiling against tyranny.
    And I disagree with the premise that because Cuba jams 
these broadcasts we should give up. I am sure there are flaws 
with TV Marti's operations. This is, after all, run by the 
Federal Government. But instead of exerting our energy, 
exposing the chinks in Marti's armor, why not put that effort 
into exploring ways to bolster the lifeline to democrats in 
Cuba? And the reason I say that is because I remember a few 
years ago we tried the airborne platform, Commando Solo, they 
call it. It is now private contractors that do that based in 
the U.S. Navy facilities in the Florida Keys. The Cuban 
response to that, of course, was flying airborne jamming 
platforms. So yes, it is a challenge to stay ahead of the 
jamming efforts.
    But are we really fated to lose? I think not, if we use a 
little ingenuity. If our broadcasting to Cuba is a waste, as 
critics contend, then how come the government of Castro spends 
so much time in his efforts to block it, and the simple answer 
is they fear the free flow of information.
    So ideas have consequences. I support bolstering efforts to 
inject as much information to Cuba as possible<greek-l>, deg. 
and TV Marti does it.
    Thank you very much, Mr. Chairman.
    Mr. Delahunt. Thank you, Mr. Royce.
    Today's hearing fulfills one of the core responsibilities 
of Congress, and this committee in particular, to ensure 
taxpayer dollars are being spent wisely and effectively. In 
this case, the United States taxpayer has spent over half a 
billion--that is with a ``b''--dollars on two government-run 
stations that broadcast to Cuba. Radio Marti and TV Marti are 
based in Miami and are managed by the Office of Cuba 
Broadcasting, known by its acronym as OCB.
    The stated mission of these broadcasts is to support the 
Cuban people's right to information and to give them objective 
news. But as the gentleman from California indicated, TV Marti 
is jammed by the Cuban Government and almost no one in Cuba can 
watch it.
    Furthermore, it has been subject to an enormous amount of 
controversy, including allegations about biased broadcasts, to 
questionable programming, to reports of nepotism, to political 
manipulation, to criminal charges of corruption. And note that 
it isn't simply allegations. Last year, TV Marti's program 
director was convicted of taking over $100,000 in kickbacks and 
sentenced to 27 months in prison. And the current director of 
OCB, who is a holdover, hired his wife's nephew as his chief of 
staff even though he had no previous experience in 
broadcasting.
    This is echoes of another U.S. Government program 
purportedly to promote democracy in Cuba. Several years ago I 
asked the Government Accountability Office, the investigative 
arm of Congress, to look into that spending. It turned out that 
it was extremely difficult to determine where exactly the money 
went. But it was clear that not all went to Cuba. The GAO 
discovered that some of it was spent in Miami on chocolates and 
Sony play stations and cashmere sweaters. It was later 
discovered that an employee of the largest grantee was topping 
off purchases meant for dissidents for his own use to the tune 
of some $11 million, rather, $11,000, at Costco. In this 
building you get used to millions and billions, so. . . . And a 
former chief of staff of the second largest grantee was just 
sentenced to 30 months in prison for stealing $600,000 in 
Federal funds.
    Now, that is not a pretty picture.
    In any case, what is important for our purposes today is 
the fundamental question of whether the taxpayers are receiving 
a fair return on their investment. Is there a better way? Is 
there a more cost effective way of transmitting objective 
information to the Cuban people, spreading American values and, 
most importantly, is anyone watching TV Marti?
    Now TV Marti has been examined by various bodies, including 
the International Broadcasting Bureau, which oversees, has the 
statutory responsibility of overseeing OCB, Office of Cuba 
Broadcasting, and the State Department Inspector General. Most 
reviews have found serious problems, often the same problems, 
over and over and over again. Only one review ever gave a 
positive grade, and that was a highly questionable Department 
of State Inspector General report in 2007 that many 
investigators do not take seriously. In fact, the State IG at 
the time was later forced to resign amid charges of political 
cover up when he interfered with the Department of Justice 
investigation in an unrelated matter.
    So I requested the GAO to conduct a thorough scrub, if you 
will. As we all concur, GAO is the gold standard when it comes 
to examining government programs, and I want to publicly praise 
them for their work. What GAO found in this case was that there 
was continuing problems with employee morale, with adherence to 
journalistic standards, with sloppy contracting, with little 
transparency in the hire of so-called talent contractors. But 
what is most striking is that, according to the most reliable 
figures compiled by the International Broadcasting Bureau, TV 
Marti has less than a 1 percent audience in Cuba, less than 1 
percent.
    Now, I am going to quote from the GAO report. This is the 
language from the report itself. None, zero, of the 533 
respondents to IBB's telephone survey living in Havana reported 
watching TV Marti broadcasts during the past 12 months. Yet TV 
Marti consumes the lion's share of the transmission budget for 
both stations.
    In Fiscal Year 2008, the Office of Cuba Broadcasting spent 
$8.5 million on transmissions. Over $7.5 million of that number 
was for TV Marti, and $6 million of that was to fly a plane to 
broadcast to Havana, to Cuba. But by IBB's own figures, it made 
no difference whatsoever in terms of TV Marti's audience.
    That is why today the hearing is entitled ``TV Marti: A 
Station in Search of an Audience?'' Because I wanted to focus 
on what seems to me to be a most egregious waste of money. TV 
Marti does not seem to have an audience. It is a station that 
no one watches. So why spend all the money on it? If something 
isn't working, doing more of the same most likely will not 
produce a different result.
    Anecdotally, I had a conversation within the past 4 or 5 
months with a respected journalist, whom I won't identify but 
has spent considerable time in Cuba reporting for a major media 
outlet, and that individual, in the 10 years that that 
individual has been there, has never met a Cuban that has ever 
seen TV Marti. And that particular reporter interfaces with 
everyone in Cuba, including the dissidents who I know 
personally and to those who are desirous of an emerging civil 
society. Not once was there, in the entire 10-year period, was 
there discovered an individual who watched TV Marti.
    Now in its latest budget proposal, the Broadcasting Board 
of Governors, which is in charge of OCB, has suggested changing 
the format of TV Marti and cutting some staff as a cost-saving 
measure. But there are concerns as to whether this is enough of 
a change in focus and whether some of these staff reductions 
may be retaliation for whistleblowers who spoke to the GAO. 
Once the Obama administration picks a permanent director for 
the OCB, I intend to explore that particular concern further.
    Because it is important to keep in mind as well the larger 
context, the United States and Cuban Governments have indicated 
a willingness to dialogue. Cuban Americans can now travel to 
Cuba whenever they want, as much as they want, while most 
Americans are still prohibited from visiting, but that may 
change as well.
    In this context, does it make sense to continue to conduct 
these broadcasts? Should we experiment with newer and different 
technologies? I know that the testimony of Mr. Shamble was 
thought provoking. Or should we simply scrap TV Marti and trust 
the American people to spread our values to Cuba?
    Let me be clear. In its current form, I consider TV Marti a 
colossal waste of taxpayer dollars. But I am open to new ideas. 
If there are alternative ways to deliver video product, I am 
happy to listen. I also realize that change is difficult. It 
takes time. So to be responsible to the taxpayers, we should 
have a public discussion on this issue, and that is why we are 
here today. And I, as chair, and I know my ranking member will 
also welcome any ideas that anyone who might have passionate 
views on the issue of Cuba want to provide to us.
    And before I recognize the gentleman, my friend and ranking 
member from California, let me note the presence of the ranking 
member of the Subcommittee on the Western Hemisphere, Mr. 
Connie Mack, and the gentlelady from California, Ms. Laura 
Richardson. Welcome. Customarily I would welcome opening 
statements from just about anybody that sat up here but, as I 
indicated, Mr. Rohrabacher and I will be the only ones today 
because we are heading to a briefing that is of some 
consequence.
    Dana.
    Mr. Rohrabacher. Thank you, Mr. Chairman. And just right 
off the bat, let me just note that I think instead of being 
focusing on scrapping Radio or TV Marti, we should be focused 
on how to scrap the Communist dictatorship that has oppressed 
the Cuban people for these last 50 years.
    Fidel Castro came to power, overthrowing a rotten 
dictatorship under a guy named Batista, who had been a sergeant 
in the Cuban army, and he promised democracy and he promised 
freedom of speech. He promised freedom of religion. He promised 
it would be a democracy. He betrayed his people.
    The current regime, the Castro regime, murdered the very 
democratic revolutionaries that helped put Castro in power. He 
betrayed not only his own people but his own cadre of 
revolutionaries. It is a despicable regime in a number of ways 
because Fidel Castro could have, had he been true to what he 
had been promising, led Cuba into an era of prosperity and 
peace. Instead, he allied Cuba with every anti-American regime 
that he could possibly make a deal with. And the fact is that 
that regime may now be, because of Castro's health, may be on 
its last legs.
    The very last thing we need to do now is to send a message 
that in some way we are going to pull back from our long-time 
commitment for democracy in Cuba. We don't need to scrap Radio 
Marti. Some of the allegations that we just heard may well be 
true. But the symbolic nature of right now, where there is a 
chance for major change to take place in Cuba and to leave this 
vicious dictatorship behind, it would be unconscionable for us 
to send a wrong signal and much more costly in the long run to 
us. We should be looking to try to work with those people who 
believe in democracy and freedom and friendship with the United 
States. We should reach out to those people right now, and 
sending them a message of no, we are closing down our 
communications now, even before any change has taken place, is 
exactly the wrong message.
    Now in terms of some of the actual charges, there is no 
doubt that there has been a limited number of people who have 
been able to benefit from Radio Marti and TV Marti in Cuba. The 
Cuban Government has spent millions of dollars, very limited 
dollars I might add, jamming those stations, which should 
indicate something about that regime. Also, I might note, and I 
understand that there is a phone survey by the GAO that 
suggests that people are not listening to Radio Marti or TV 
Marti. Well, let me just note this, and I will be hopeful we 
will get an answer to this when we hear testimony on this. In a 
country that does not have a lot of telephones and what is 
the--how many households have telephones in Cuba--and when you 
live in a dictatorship if someone calls you to ask if you are 
listening to radio broadcasts that attack the dictatorship how 
many people are going to answer honestly? I mean, this doesn't 
take a genius to figure out that people don't answer telephone 
surveys in Cuba about their political beliefs.
    As far as the journalistic friend of my friend and 
colleague and chairman, I will have to tell you that I give 
American journalists and their reporting of what has gone on in 
Cuba for the last 50 years, I give them a big F. I wouldn't 
trust any of them. The fact is Castro was misrepresented to the 
American people originally as a democratic liberator. Those 
were lies that were perpetuated and perpetrated on the American 
people by respected American journalists. And over the years we 
have never seen the type of in-depth coverage of the vicious 
nature of that regime that was justified by the type of 
activities that Castro was involved in.
    So I can't take an anecdotal statement by a journalist who 
I don't know and I can't take a phone survey to say that is 
going to be an authoritative methodology for me to determine 
whether certain amounts of money are being wasted or not.
    With that said, I certainly agree with the idea that we 
must make sure that anybody who is involved with kickbacks or 
misuse of our Federal dollars is discovered and prosecuted to 
the full extent of the law, and to that degree I think we need 
to make sure that the pressure is on from this committee and 
other committees to oversee that. But using this as an excuse 
to make a dramatic step, and even before there is reform, 
symbolically reducing our pressure would be exactly the wrong 
direction.
    Thank you, Mr. Chairman.
    Mr. Delahunt. I thank the gentleman, and I understand that 
our friend from Florida, Mr. Mack, has a pressing engagement 
and is looking for 30 seconds. We will give him 1 minute to 
make a statement before excusing him.
    Mr. Mack. Thank you, Mr. Chairman, and also the ranking 
member, for allowing me to be here and giving me just 1 minute.
    Mr. Chairman, I listened closely to your statement. And the 
feeling--first of all, I think we would all agree that the 
Castro brothers, it is a dictatorship, the human right 
violations, the brutality of this dictatorship is something 
that I think all of us can agree on and that it is not a good 
thing. And I, too, wanted to voice my concerns about basing a 
decision on responding to a telephone call in Cuba asking 
whether or not you watch or listen to a broadcast that the 
brutal dictators do not want you to listen to or to watch, you 
can't trust that poll. Imagine the fear, and you can listen to 
just some of our colleagues who have had experiences growing up 
in Cuba, about how the people representing the Cuban Government 
would come into their homes and look for things that might be 
opposed, that show signs of being opposed to Castro. So imagine 
that phone call coming in, you probably believe that it is your 
own Government trying to crack down on you. So you cannot 
trust, I believe, a telephone survey in Cuba to base your 
decision on whether or not TV Marti is worth continuing.
    You also have, so you have a range of somewhere between 21 
percent to less than 1 percent. I would trust the people who 
have left Cuba who say that yeah, I was able to see TV Marti in 
Cuba. And so let's say you don't believe in the 21 percent. 
Let's say it is 10 percent. If you can provide a little hope 
for people who live in a country who are being, whose dreams 
are being crushed by Castro, Fidel and Raul Castro, that is the 
kind of hope that America should be for. And fighting for 
freedom doesn't mean that you get to fight all the time at 100 
percent. But if you can reach at the high end 21 percent of the 
Cuban people with TV Marti, it is a worthwhile program for the 
United States to be involved in. And in no time is it more 
important than now for us to continue to spread a message of 
hope and give the people of Cuba, who are dying, who have a 
thirst for information, to give them that information, and 
taking away TV Marti, Radio Marti, does a disservice to the 
Cuban people and does a disservice to the people of our 
country.
    So with that, I would just like to say I hope that when we 
look at these statistics that we view in them what they are. 
One has a hint of intimidation behind it, the other is based 
upon people who have left Cuba who are now living in freedom 
and have the ability to speak their mind without fear of their 
government either throwing them in jail or intimidating them 
and their families.
    Thank you.
    Mr. Delahunt. Thank you, Mr. Mack. And we will proceed 
forthwith to--because I understand Ms. Richardson can join us 
for the remaining hearing. And we will move quickly because we 
want to keep you here.
    I am going to begin by introducing Jess Ford, who is 
director of the International Affairs and Trade Division at the 
GAO. He joined the GAO in 1973 and has worked extensively in 
the national security, international affairs area concerning 
trade, foreign assistance and foreign policy issues. He has 
managed GAO audits of the Agency of International Development, 
the State Department, and the Department of Defense. He 
received a bachelor's degree in political science from Hiram 
College and a master's degree in international relations from 
the Fletcher School of Law and Diplomacy. He is also a graduate 
of the National War College. He has received numerous awards 
throughout his GAO career.
    Welcome, Jess.
    Philip Peters is the vice president of the Lexington 
Institute. He has published studies based on regional field 
research in Cuba since 1996 with an emphasis on economic 
policy. He also analyzes United States policy toward Cuba and 
writes a blog on Cuba issues. It is entitled the ``Cuba 
Triangle,'' and I would commend it.
    He serves as an adviser to the Cuba Working Group in the 
House of Representatives and has organized nine congressional 
delegations to Cuba. Mr. Peters served in the State Department 
under President Ronald Reagan and George Herbert Walker Bush 
and holds degrees from Georgetown's University School of 
Foreign Service and their graduate school.
    John Nichols is a professor of communications and 
international affairs and associate dean for graduate studies 
and research in the College of Communications at the 
Pennsylvania State University. A member of that faculty since 
1977, he is a specialist in international communications, 
comparative media systems, and international telecommunications 
policies. He has conducted research on Cuban communication 
issues for over three decades. He also has won Penn State's 
Most Innovative Teacher Award in 1999 and has held many 
leadership posts at the university, including chair of the 
University Faculty Center.
    Tim Shamble is currently president of the American 
Federation of Government Employees, Local 1812. He has been in 
that position since June 2000. He is on 100 percent official 
time with the union. His position of record is as a multimedia 
production specialist with the Voice of America. He is paid by 
the VOA, which is a subcomponent of the BBG, the Broadcasting 
Board of Governors. He represents the broadcasters and 
journalists of the VOA and the Office of Cuba Broadcasting. He 
began his government career in 1991 as a radio broadcast 
technician with Radio Marti. He has held a variety of positions 
with the union.
    Jess, welcome, and why don't we proceed with your 
testimony? But before you proceed, there is an interesting 
footnote, I think, in the report--this is in response to my 
friends Messrs. Mack and Rohrabacher--about person-to-person 
interviewing in Cuba, and I found it interesting to note that 
Broadcasting Board of Governors requested a license to go to 
Cuba and to conduct person-to-person interviews. It was denied 
by our own Government. I found that rather interesting.
    At the same time, the IRI, which is a group to promote 
democracy under the auspices of the Republican Party, the 
Institute for Republican--the International Republican 
Institute--thank you--was granted a license and, in fact, did 
conduct person-to-person interviews, and that information is 
available. I found that rather mystifying. But again there are 
all kinds of mysteries going on. I am always reminded of that 
message about waiting a little bit longer. I think that is a 
song, ``just a little bit longer.'' And there is a noted 
columnist whom I have never met and have had no contact with 
who writes for the Miami Herald and most likely other outlets. 
His name is Andres Oppenheimer, and he appears to be well 
respected, who wrote a book which I read that was entitled the 
Final Days of Fidel Castro. The book was written in 1992.
    Again, I think we have to be open to new ways of thinking. 
Clearly, this administration has charted a different course. It 
will continue a different course in terms of the bilateral 
relationship with Cuba. But when I hear about Cuba and we can't 
show any weakness, 50 years is an awful long time. It is time 
for a change.
    Mr. Ford.

STATEMENT OF MR. JESS FORD, DIRECTOR, INTERNATIONAL AFFAIRS AND 
          TRADE TEAM, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Ford. Thank you, Mr. Chairman, members of the 
subcommittee. I am pleased to be here today to discuss GAO's 
work on United States television broadcasting to Cuba.
    The United States has been broadcasting to Cuba for more 
than two decades via Radio Marti and TV Marti. The purpose of 
the broadcast is to break the information blockade and to 
promote freedom and democracy in Cuba.
    United States television broadcasting to Cuba is performed 
by the Office of Cuba Broadcasting based in Miami and is 
overseen by the Broadcasting Board of Governors here in 
Washington. The OCB operates TV Marti, which broadcasts news, 
commentary, and entertainment to Cuba. At the request of this 
subcommittee, we have reviewed a variety of issues related to 
the effectiveness of OCB's television broadcasts.
    My remarks today are based on two GAO reports issued in 
January of this year and July of last year. Based on your 
interest, I am going to focus my discussions primarily on TV 
Marti.
    In brief, Mr. Chairman, we found certain actions are needed 
to improve the strategy and operations of United States 
television broadcasting to Cuba. For example, to assist 
decision makers in formulating a broadcast strategy and making 
funding decisions, we have recommended that the Board of 
Broadcasters assemble data to help assess the effectiveness on 
the various types of transmissions from OCB. We have made a 
number of other recommendations which I can discuss later.
    OCB broadcasts to TV Marti Cuba through multiple 
transmission methods, but the best available research indicates 
that the audience is small. To overcome Cuban Government's 
efforts to jam its signals, OCB broadcasts TV Marti through 
over-the-air broadcasts by an airplane called Aero Marti and 
two satellites and the Internet.
    During the past 3 years, OCB has allocated significantly 
more money to TV Marti transmissions, particularly the 
airplane, than radio transmissions. Due to the U.S. 
Government's lack of access to Cuba, OCB has difficulty 
obtaining nationally represented data on its audience size. And 
I want to emphasize this point, that our Government to date 
really has no overall good information on a national basis on 
audience size.
    In addition, decision makers have limited information to 
help assess the relative success on a return of investment for 
each of the transmission methods. For example, it is not 
possible to determine from the broadcasting board's telephone 
surveys whether TV Marti's audience is due to the airplane, 
which costs about $5 million a year to operate, or from direct 
TV transmission, which costs about a $0.5 million annually.
    While there are no nationally representative data on the 
size of the audience, the best available research from the IBB 
telephone surveys, of which there have been four since 2003, 
indicate that TV Marti's audience size is small. Specifically, 
the four telephone surveys have reported less than 1 percent of 
the respondents had watched TV Marti in over the past week.
    Most notably, the most recent surveys in 2006 and 2008 
showed no increase in reported TV Marti viewership after the 
launch of the Aero Marti and direct broadcasting. OCB 
broadcasts face significant jamming by the Cuban Government. 
However, despite these efforts, they still lack reliable data 
on the number, type, and effectiveness of signal jammers. As a 
result, it is unclear how much of the television's signals can 
actually be seen or heard in Cuba.
    We have also reported that while the BBG coordinates with 
other United States agencies on Cuba policy issues, it was not 
optimizing the use of audience research done by other agencies. 
We made a recommendation to the board that they coordinate more 
fully with other executive branch agencies that have 
information regarding audience information that OCB was not 
aware of at the time of our review.
    We also note that the OCB still has not drafted a formal 
strategic plan that has been recommended by the State IG in 
2007 and, as far as we know, that plan still has not been 
finalized.
    With regard to the issue of journalistic standards, our 
review identified some problems with TV Marti's adherence to 
certain journalistic standards. Surveys done by the 
International Broadcasting Bureau indicated that in some cases 
there were a lack of compliance with basic standards, such as 
accuracy, balance, and objectivity. Since 2003, these types of 
reviews have made recommendations to OCB to improve their 
adherence to journalistic standards. However, OCB staff have 
received little training in compliance with journalistic 
standards. In our report we recommended that the BBG establish 
better training programs for OCB staff to ensure that these 
standards will be followed.
    We also had a number of recommendations to improve the 
overall management and oversight of OCB. Among the type of 
issues that we reported was their need to enhance 
communications with their staff. We noted there were a number 
of cases of employee morale issues being low and that the board 
for broadcasting needed to work with OCB to enhance 
communications with their staff.
    Finally, Mr. Chairman, I just want to quickly go over the 
recommendations that we made in our report. I can tell you that 
we got a positive response from the board on all of these 
recommendations.
    We first recommended that they do an analysis to look at 
the return on investment of each of the various transmission 
methods and to coordinate with other executive agencies, 
including the Department of State and AID, on the types of 
information that are out there based on their work. The OCB at 
the time, as I mentioned, had no knowledge of some of that 
research information.
    We also recommended that they enhance guidance and training 
with regard to program reviews and also to ensure that they 
follow journalistic standards.
    We also recommended that they provide staff with training 
in this area. We also recommended that they enhance 
communications and they also tighten up their contracting 
practices in response to our July report, which indicated that 
they had not followed sound business practices in contracting.
    That concludes my statement. I will be happy to answer any 
of your questions.
    [The prepared statement of Mr. Ford follows:]<greek-l>Jess 
Ford deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Delahunt. Next let me go to Mr. Phil Peters.

   STATEMENT OF MR. PHILIP PETERS, VICE PRESIDENT, LEXINGTON 
                           INSTITUTE

    Mr. Peters. Thank you, Mr. Chairman, for holding this 
hearing. I want to commend you once again for examining our 
policy toward Cuba.
    Mr. Delahunt. Also, excuse me if you will, but let me note 
the arrival of the gentleman from Arizona, who is the 
Republican chair of the Cuba Working Group and has been an 
ardent fighter against waste and inefficiency in government 
since his election to this institution. And I want to further 
acknowledge the presence of the vice chair of the committee, 
the gentleman from Missouri, my good friend, Russ Carnahan.
    Mr. Peters. I will proceed. Again thank you, Mr. Chairman. 
I want to commend you and the committee for holding this 
hearing. I think that people, regardless of where we are in 
terms of our views about our Cuba policy, I think that it is--
we can agree it is a policy that has not been examined well and 
that we can all benefit from greater examination of it. So I 
congratulate you on these hearings you are holding.
    I enjoyed Mr. Rohrabacher's statement and while I don't 
agree you with you, Mr. Rohrabacher, about the work that our 
journalists, that Americans and other journalists do in Cuba, 
you brought to mind Herbert Matthews of the New York Times who 
was duped by Fidel Castro when he was a guerrilla in the 
mountains there. It prompted William Buckley some time later to 
do a cover of National Review, he put Castro on the cover with 
the headline, ``I got my job through the New York Times.''
    Let me get to the point though. We are talking about TV 
Marti. I don't plan to say anything about Radio Marti, 
certainly much less to say we should get rid of it. But I think 
that TV Marti as a government program, not to be flip about it, 
is a joke. I think that everybody gets the joke except the 
Congress and except the successive administrations. So for 19 
years the money keeps rolling, the program has no practical 
effect, and it just keeps rolling on.
    There is no talk--you can talk to people in Cuba. You ask 
them about Radio and TV Marti, and the answer you get is 
typical. They will talk about Radio Marti. They have got 
something to say about it, something they have heard about it, 
something they have heard on it. They will recall something, 
and there are famous stories about Radio Marti stories that had 
an impact.
    There are no stories like that about Television Marti. I 
mean it is the only TV station I think in history where there 
is a debate after 19 years as to whether there is an audience 
for it or not.
    There is a lot of evidence, I talk to people around Cuba, I 
have tried to talk to people that have networks to bishops to 
reporters to diplomats, people who have networks throughout the 
country. They report nothing in terms of TV Marti audience.
    Just to take two indicia, there was a statement of just 
last year by three--no, just a few months ago--by three major 
dissident groups that encompass all the dissidents that we 
know, all the leaders of all the groups, and they said in a 
letter to President Obama, among other things, that the signal 
of TV Marti ``simply does not reach Cuban homes.''
    Secondly, I will mention that in 2007 the State Department 
issued a report, the State Department Inspector General, and 
they disclosed that our diplomatic mission in Cuba, the U.S. 
Interest Section, has a network of 15 people all around the 
country who monitor Radio and TV Marti. The results that we get 
from these monitors, the State Department reported are 
``bleak.'' And they reported ``that the TV Marti signal, quote, 
can rarely if ever be received.''
    Now, in the end this is not a joke. Public diplomacy is 
serious. I believe in public diplomacy. I believe in the 
tradition of all the radios that Mr. Shamble and his colleagues 
worked at all throughout the Cold War. I don't know how we have 
gotten ourselves in a position where this particular instrument 
of public diplomacy is a test of everyone's manhood with regard 
to communism in Cuba. It is a tactic. It is not an end in 
itself. And I think the only thing that TV Marti has challenged 
is that Congress truly cares about the taxpayer money. Nineteen 
years, no practical effect, no audience. And the money keeps 
rolling.
    I don't think it is a sign of weakness to kill TV Marti. I 
think we should kill TV Marti. It doesn't work. What is a sign 
of weakness is to keep going a program that has no practical 
effect and to pretend that it does when there is an opportunity 
cost attached with that. We spend about $10 million a year on 
it, and we could do with that $10 million a year something that 
actually does communicate with Cubans. And I think that is the 
challenge for all of us regardless of how we come at the issue, 
is to think how can we, since we all care about communication 
with Cuba and with Cubans, can we take this money, if you could 
save the taxpayers the money, we would all appreciate that. But 
if you want to dedicate it to public diplomacy, dedicate it to 
something that works.
    One thing might be to use it to improve Radio Marti, 
although I would urge skepticism on that score because there 
are a lot of things in government, that throwing more money at 
them doesn't solve the problem. If the problem with Radio Marti 
is that it is not interesting enough for people to listen to or 
that there is bias that turns Cubans off, well, money is not 
the issue there. That is an issue of professional standards and 
rigorous journalistic standards that are enshrined in the VOA 
charter.
    But as Mr. Delahunt says, if there is a money issue, I 
would encourage you to look at that. But why not look at other 
instruments of public diplomacy? You are not going to like 
this, Mr. Rohrabacher, but I strongly believe that public 
diplomacy is not just for the government. I don't think the 
government should have a monopoly on it and I think our 
influence with foreign publics derives not just from government 
programs where you take our money but from when the government 
gets out of our way and gives us our liberty, in this case to 
travel and to unleash American travelers and the power of 
American civil society to go to Cuba and engage with Cubans in 
all walks of life.
    Secondly, why not look at these programs that you already 
spend millions and millions on in the State Department's 
Educational and Cultural Affairs Bureau that connect Americans 
with people in all walks of life in countries all over the 
world in all kinds of political systems? You appropriate that 
money; you authorize that money because it is effective. Why 
not take a look at that in the case of Cuba? Why not also look 
at the private sector? There are many possibilities there.
    I mentioned one in my written statement, which I ask that 
you include in the record, Mr. Chairman, which is one that was 
developed at MIT. It is called the One Laptop Per Child 
Program. It is an educational program where geniuses at MIT 
have developed a $200 laptop that has educational content on it 
and that networks among these laptops, again, $200 a copy. And 
so it creates education, and it is a communications device. Now 
that would require engaging with Cuba. Maybe they wouldn't want 
to do it, but the possibilities are endless. Don't take my word 
for it. But I encourage you to task the State Department to 
look at the possibilities and see what the options are.
    I think it is something we would all probably agree on that 
if TV Marti didn't exist and we were thinking now about public 
diplomacy with regard to Cuba, we probably wouldn't think about 
building a TV station, a foreign government TV station to 
broadcast into Cuba.
    Right now, we are all pretty consumed with what is 
happening in Iran, and the communication that is coming from 
Iran is incredible. It is citizen driven. It is the opposite of 
a top-down television station. It has nothing to do with 
government. It has nothing to do with media organizations. It 
is citizen driven. And so much of what we know from Iran now is 
because people have a cell phone and they get audio and they 
get video and they send text over their cell phone.
    We are in a different age, and TV is really from a 
different age.
    Finally, I will just refer to what President Reagan said 
about public diplomacy when he was defending and promoting 
exchanges with the Soviet Union in 1984. He said that civilized 
people everywhere have a stake in keeping contacts, 
communication, and creativity as broad, deep, and free as 
possible. And the way that governments can best promote 
contacts, President Reagan said, among people, is by not 
standing in the way.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Peters 
follows:]<greek-l>Philip Peters deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Delahunt. Thank you, Mr. Peters. And next we will go to 
Professor Nichols.

 STATEMENT OF JOHN NICHOLS, PH.D., PROFESSOR OF COMMUNICATIONS 
        AND INTERNATIONAL AFFAIRS, PENN STATE UNIVERSITY

    Mr. Nichols. Thank you, Mr. Chair. Thank you for the 
opportunity to testify.
    There are a lot of things in the world that I know 
absolutely nothing or little about. TV Marti is not one of 
them. I have been researching and writing about TV Marti since 
before its beginning, and I was very active in the debate two 
decades ago on the authorization of TV Marti. I know it is 
immodest of me to say, I hate to be the type of guy to say I 
told you so, but I simply could not resist.
    Mr. Delahunt. Tell us anyhow, Professor.
    Mr. Nichols. Thank you. I couldn't resist attaching my 1988 
testimony to another subcommittee of the Foreign Relations 
Committee in which I argued against the authorization of TV 
Marti.
    My reasons back then were, first, that the physical 
properties of long distance television broadcasting, 
particularly the properties of TV Marti, were not conducive to 
delivering a usable signal across the Straits of Florida into 
Cuba without the cooperation of the Cuban Government.
    Second, as a result of the first, that there would be 
little or no audience in Cuba as a result of those physical 
limitations.
    Third, I argued that in an effort to achieve this goal, 
that the United States would have to resort to methods that 
almost certainly would place it in contradiction with its 
international treaty obligations; namely, the International 
Telecommunications Convention, and United States is a signatory 
to that convention and we rely heavily in other areas for the 
operation of our domestic broadcasting system, the protection 
of our domestic broadcasting system depends on that very 
treaty.
    And finally, I argued that everything that TV Marti was 
proposing that they could do could be done through other 
methods that would have no or little cost to the taxpayers, 
would not place us in violation of our international treaty 
obligations, and wouldn't have all the side effects on our 
foreign policy interests.
    Twenty years, or 20-plus years later since my 1988 
testimony, I think those predictions hold up pretty well.
    TV Marti's quest to overcome the laws of physics has been a 
flop. Aero Marti, the airborne platform for TV Marti, has no 
audience currently in Cuba, and it is a complete and total 
waste of $6 million a year in taxpayer dollars. The audience of 
TV Marti, particularly the Aero Marti platform, is probably 
zero. And I am troubled by the fact that the International 
Telecommunications Union, going back to 1990, has repeatedly 
notified the U.S. Government that we are not in compliance with 
our treaty obligations and that the United States must take 
corrective action to bring ourselves back into compliance. We 
have not responded to those directives from the ITU.
    TV Marti's response to this succession of failures over a 
two-decade period has been to resort to ever more expensive 
technological gimmicks, all richly funded by Congress, and none 
of those gimmicks, such as the airplane, work or probably can 
work without the compliance of the Cuban Government. It is just 
the laws of physics.
    In short, TV Marti is a highly wasteful and ineffective 
operation.
    In closing, Mr. Chairman, I do want to emphasize that I 
strongly feel that there are ways in which the U.S. Government 
can and should improve its communication with the Cuban people, 
and to foster democracy on the island, and to try to help to 
improve the lives of the Cuban people. But TV Marti is not one 
of them. Mr. Chairman, TV Marti is an embarrassing and 
expensive failure. It seriously undermines our own U.S. best 
interests. Therefore, I encourage the Congress to close the 
station and open real opportunities for improved communication 
with the Cuban people.
    Thank you again. I look forward to answering your 
questions.
    [The prepared statement of Mr. Nichols 
follows:]<greek-l>John Nichols deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Delahunt. Thank you very much, Professor.
    Mr. Shamble, I indicated earlier that I had read your 
testimony and I found it thought-provoking. I know there has 
been a lot of speculation about the consequences to employees. 
Clearly, that is understandable.
    Let me tell you where I am coming from right now so you get 
an idea. I don't know how long we are going to be able to be 
here. But this plane that is costing us $6 million--and I did 
read Professor Nichols' testimony as well, as well as all of 
your testimony--it just doesn't make any sense whatsoever.
    It isn't increasing, you know, the audience. The invisible 
audience is not being increased by the expenditure of $6 
million. In addition to that, the permanent employees in the 
Marti operations, I have met a number of them, they appear to 
be professional and dedicated. But I have to tell you, I have 
had enough of the contractors. Because as I review these 
contracts, they arouse in me a suspicion that they can be 
awarded based upon political patronage. That does not, I think, 
enhance the Marti operations as a whole.
    So at this point in time, understanding that change occurs 
incrementally, and that it is slow, a step-by-step process, in 
my mind would be to let's get the plane back on the ground and 
let's end the contracting, which in other reports has been 
extremely problematic.
    I can only think of the one with a radio station that is 
also jammed, receiving hundreds of thousands of dollars from 
the U.S. Government, and then running ads that I am sure the 
Cubans found interesting if they wanted to join the National 
Guard here in the United States. But I presume they have their 
own military that they are drafted into.
    And, of course, if you have a problem with estate planning, 
I doubt that that is a subject that the Cuban people or even 
members of the Cuban Government would be concerned about, as 
their tax laws presumably are far different than ours. But in 
any event, go ahead, Mr. Shamble.

STATEMENT OF MR. TIM SHAMBLE, PRESIDENT, AMERICAN FEDERATION OF 
                GOVERNMENT EMPLOYEES, LOCAL 1812

    Mr. Shamble. Thank you, Mr. Chairman and members of the 
subcommittee. I appreciate the opportunity to speak today on 
broadcasting efforts by the OCB. And I want to touch on 
employee concerns as well.
    I am going to summarize my statement, because I know we 
have limited time. TV Marti transmission has been a problem 
since the beginning. The signal has been jammed. Numerous 
efforts have been made to get the signal into the island, the 
latest being AeroMarti. And as we heard, it costs anywhere 
between $5 million and $6 million a year, and it has not been 
effective by all accounts.
    That being said, audience measures have to be looked at 
dubiously. As we have heard, Cuba is a totalitarian regime, and 
taking telephone surveys of people in Cuba and expecting them 
to answer honestly about listening to or watching stations that 
are not promoted by the Cuban Government is really not 
realistic. Does audience size matter anyway for government 
broadcasters?
    You want to get as large an audience as possible, but you 
are restricted in the programming that you present. So a 
commercial broadcast, of course, needs a large audience. The 
bottom line is they sell airtime. They can charge more for 
their airtime the larger the audience is.
    But for government broadcasters, we have a mission for 
Marti, TV Marti. It is the VOA charter and the enacting 
legislation. And that limits any kind of audience you are going 
to get. You are never going to get a ratings winner 
broadcasting a program on explanation of American foreign 
policy, although it is important and the number of people you 
do reach is critical, but it is not going to be a huge ratings 
winner.
    All that being said, there has been a lot of discussion 
today about closing down TV Marti because the signal is jammed, 
there is no reliable data on anybody seeing the station. But we 
are in a new media climate now. Terrestrial TV broadcasting is 
not the only way to get a video product to the viewer. And TV 
Marti should be viewed as a video provider, not just a 
television station. You can use the Internet to get a video 
product to the viewer. You can use cell phones now. You can use 
other hand-held devices such as iPods. And this is what TV 
Marti should concentrate on. Terrestrial TV has always been a 
problem, but we have different alternatives now than we did 
back in 1990. And I think that is what TV Marti, OCB, and the 
BBG should be looking at, looking at these other alternatives. 
There is a----
    Mr. Delahunt. Let me interrupt you, Mr. Shamble.
    Mr. Shamble. Go ahead.
    Mr. Delahunt. And I want others to consider these 
questions. You know, if we grounded the plane and relied on 
satellite or other technologies and maintained the personnel, 
would that cause the morale, the employee problems that you 
allude to, to fester or to improve? Give me some feedback.
    Mr. Shamble. It would certainly improve their morale now. 
The proposal in the Fiscal Year 2010 budget from the BBG was to 
change the programming from long-form newscasts and information 
shows to 5-minute news briefs, and then eliminate between 30-40 
full-time employees.
    Mr. Delahunt. Was there a study done on this by management?
    Mr. Shamble. Not that I know of.
    Mr. Delahunt. So this just came out of the air like 
AeroMarti?
    Mr. Shamble. As far as we know, yes. And the problem with 
that proposal is it doesn't address the problem. The real 
problem with TV Marti is the signal, the transmission. It is 
not the programming.
    Mr. Delahunt. Right. I guess what I am saying to you is, 
you don't, you know, presume that you support the concept, 
okay, of transmission of----
    Mr. Shamble. The terrestrial TV.
    Mr. Delahunt. Right.
    Mr. Shamble. Right.
    Mr. Delahunt. You don't gain anything with this. You can 
take that money and use it to support other initiatives, you 
know, whether it be satellite and other initiatives, and you 
lose nothing, and yet you effect a savings of $5 million or $6 
million.
    Mr. Shamble. By getting rid of----
    Mr. Delahunt. By getting rid of the plane.
    Mr. Shamble. Yes, you would.
    Mr. Delahunt. That is what I want to know. I would like you 
to do a survey of employees at OCB and, you know, give us some 
feedback. You know, I am inclined to support the position of 
Mr. Nichols and Mr. Peters, but yet at the same time, you know, 
there is a human element here. And I know people are--I know we 
are all facing a difficult patch. And I am sure that the 
talents of those that are currently there can be maximized.
    You could help me save some money because this is, from my 
way of thinking, an absolute waste of American taxpayer 
dollars. I like the ideas put forth by Mr. Peters in terms of 
being creative. You know, it is time for a change. Times they 
are a' changing, like Dylan said. And I look toward you, as the 
representative of the employees.
    And I also like the idea about a Voice of America, Latin 
American edition. I don't want you to go into it, but let's not 
just focus on Cuba. American Latin American policy has been 
held hostage by a bilateral relationship that should change and 
that many of us here in Congress are working to change. But if 
you can, just conclude by addressing the issue of employee 
morale, because that gives me some feedback in terms of 
management issues.
    Mr. Shamble. Well, the issues with employee morale, the 
main issues I deal with are the overabundance of contractors. 
And that is not just in OCB, by the way, it is throughout the 
BBG. It is with VOA as well. And we have reported these issues 
before. We believe that they are hiring contractors, using them 
as employees, which is a violation of the contracting rules and 
regulations. If Congress would take a look at the contracting 
issues, I think that would really improve morale.
    Mr. Delahunt. I tell you what I find really disturbing is 
in your testimony you say there is a real fear of retaliation 
in the Office of Cuba Broadcasting and throughout BBG itself, 
so employees are reluctant to do anything more than report the 
charges. In the last three Office of Personnel Management 
surveys, the BBG has been at or near the bottom of all 
government agencies who took part. The last survey showed the 
BBG at the very bottom for questions such as--and I am using 
your words: I can disclose a suspected violation of any law, 
rule, or regulation without fear of reprisal.
    Employees answered in the negative almost twice as often as 
the government-wide average. I mean it is not surprising that 
the GAO report of 2009, some of the allegations were 
investigated, but people appeared to be concerned about their 
livelihood. That must stop. If morale is at that particular 
level, that is just--put aside the issue of the Marti 
operations, put aside that, put aside the issue of, you know, 
our policy vis-a-vis Cuba. That is unhealthy, and I want to 
know about it because this particular committee has 
jurisdiction not just over the Office of Cuba Broadcasting, but 
the BBG itself. And if that continues in terms of a trend, it 
tells me that we have a dysfunctional operation on our hands.
    I am going to cut you off because I want to go first to our 
Republican, then I am going to go to Ms. Richardson, then I 
will end up with that fighter of pork who comes from the State 
of Missouri, the vice chairman of the committee.
    [The prepared statement of Mr. Shamble 
follows:]<greek-l>Tim Shamble deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Delahunt. Let's begin with Mr. Flake from Arizona.
    Mr. Flake. Thank you, Mr. Chairman, and thanks for your 
indulgence in allowing me to sit in and ask questions.
    Mr. Nichols perhaps, you mentioned a lot of the technical 
difficulties. And we know that those are steep. But when I have 
been in Cuba, I have sometimes asked those that we have met 
with if they listened to Radio Marti, which a lot of the 
technical issues don't apply. They can receive it. And the 
response has been pretty uniform. They say yes, we can, but why 
should we? It is a question of programming. They just don't get 
enough new news to make it worthwhile.
    And so flipping back to TV Marti, if we were able to 
overcome the technical issues, in your view--and I would like 
Mr. Peters or perhaps anyone else, to speculate on whether or 
not we would face other issues--is the programming just so out 
of touch with Radio Marti? I have to tell you the comments were 
often, you know, yeah, we know Castro is a bad guy. We have 
heard it. We live it. Believe me, we don't need to be told that 
anymore. We would like some actual news. And there was too 
little of it, there was too much editorializing.
    And I know that some of those problems still exist, but I 
would like to have your perspective.
    Mr. Nichols. I absolutely agree with the thrust of your 
question, but we don't need to speculate, I think we know. The 
example would be that TV Marti is also carried by satellite, 
which is not disrupted. The signal can vw and is received. And 
as you know, there is an unknown but probably significant 
number of satellite dishes that can receive that. But what 
happens, people have scores and scores of programming choices, 
and they choose not to watch TV Marti, but, rather, to view 
other programming, Spanish language programming from Miami or 
from other countries.
    So I think we already know. The answer to the question is 
the Cubans would prefer, even if they are opposed to the Castro 
government, even if they have serious issues with what is 
happening in Cuba, it does not automatically translate that 
they are going to watch TV Marti. They are going to look for 
more credible sources of information and entertainment.
    Mr. Flake. Mr. Peters, you want to comment on that?
    Mr. Peters. I don't envy the management of Radio Marti, 
because I think they are broadcasting into a very competitive 
media environment. Now, that may sound like an odd statement, 
but the fact is that in Cuba the state media have a variety of 
programming. They have Grey's Anatomy and they have got the 
Sopranos on TV. For decades they have had American movies on.
    Mr. Delahunt. How about ``American Idol''? Have they found 
that yet?
    Mr. Peters. I don't think so. Movies on Saturday night. 
They have got great music programming. They have got 
programming about all kinds of things that people are 
interested in. Of course, there is an ideological component to 
it. But there is that, and then a lot of Cubans have short-wave 
radios, and so they can listen to broadcasts that come from 
here, but they can listen to Spain's international 
broadcasting, to the BBC Spanish Service, and so it is not an 
easy challenge. Plus a large part of the charge of Radio Marti 
is politics. And a lot of Cubans are not interested in 
politics.
    So Mr. Shamble is pointing out something that I think is 
very apt, which is that the limit, you know, there may be a top 
limit on the potential audience share of the Radio Marti that 
is in fact quite low. I think that speaking of what you 
referred to, Congressman Flake, just in January of this year, 
Vladimir Roca, one of the dissident leaders in Cuba, said that 
the Radio Marti programming ``is so bad and so uninteresting to 
the Cuban people that no one listens.'' And also in January of 
this year, he said that 80 percent of the station's programming 
is about the local agenda in Miami.
    I think that the challenge for Radio Marti is to be 
straight, to avoid the problems that have persisted for many 
years of bias and selectivity, which turns the Cuban audience 
off, and to reach the quality standards that make so many 
Cubans, when they have a short-wave radio and turn it on, 
listen to some broadcast other than from the United States.
    Mr. Flake. Mr. Ford, do you have any comments? I know you 
addressed a lot of the technical issues.
    Mr. Ford. Yeah, we reviewed a lot of the surveys and 
program reviews that are conducted by the International 
Broadcasting Bureau. And this whole issue of bias that is 
introduced occasionally on broadcasts, lack of balance and 
credibility, we have seen going back to 2003 that that 
repeatedly comes up in the program review process. And OCB has 
not been able, apparently, to respond to recommendations over 
that whole period, 6-year period that would eliminate some of 
that bias. So that again, I think that is what we are hearing 
here, is a case of if you want to have more effective 
programming, we need to have a more professionalized operation. 
And we need to exclude all of these biases and lack of balance 
that have been reported through the review process. So I think 
that issue needs to be addressed.
    Mr. Flake. Thank you. Thank you, Mr. Chairman.
    Mr. Delahunt. Ms. Richardson?
    Ms. Richardson. Thank you, Mr. Chairman. I will ask one 
brief question and then I will just make a very brief comment. 
Are any of you gentlemen aware of any other cases in the United 
States Government where we use aircraft to transmit broadcasts 
to countries without their permission?
    Mr. Peters. Outside of a wartime context where it is the 
U.S. military doing it, no.
    Ms. Richardson. Okay. Let me just very briefly say I see a 
lot of students in the audience, and I think it is important 
that they hear all perspectives and have an opportunity to 
learn.
    I recently went to Cuba and met with President Raul Castro, 
former President Fidel Castro, and the President of the 
National Assembly, Ricardo Alarcon. When I hear comments of 
dictatorship of Cuba, I want to be clear. I can't speak to 
everything that has ever happened or currently is being done 
throughout all of the island of Cuba, but what I can say is I 
personally did not see police intervention of folks trying to 
interact with us and communicate with us. I didn't see a 
prohibiting of freedom of religion. There were a lot of things 
that I have heard that I actually did not see for myself.
    What I would like to say is that when we went to the U.S. 
Intersection Office, I saw very consistent to what the concerns 
we are hearing today. I went to a building that serves 
essentially as an embassy. We are not allowed to have an 
embassy. And there was a sign, an 80-foot sign that went the 
entire distance of the building, that was spewing out this 
information. And I know of no other embassy in no other place 
where the United States--where we do this.
    So what I would say is I want to compliment you, Mr. 
Chairman, for holding this hearing. I want to compliment the 
witnesses who have been providing us other avenues of things to 
consider. Because I strongly agree, I don't think we should end 
communication, but number one, it should be cooperative. And we 
shouldn't be violating our own laws that we strive for if we 
are not doing it, abiding by the own laws that we talk about in 
this country.
    So I would welcome the opportunity to learn more about how 
we could change the programming that would meet the approval of 
the government and our Government, and also considering, as you 
said, Mr. Chairman, maybe some other vehicles of how we might 
choose to communicate. But I applaud you taking on this issue, 
and look forward to working with you.
    Mr. Delahunt. Thank you, Ms. Richardson. I am confident 
that we would receive the permission of the Cuban Government if 
the Boston Red Sox baseball games were part of this effort. 
Because Red Sox Nation does extend beyond Boston, beyond the 
United States. It is an international phenomenon that I know 
would be welcomed in Cuba, as well as everywhere on the planet.
    And with that, let me recognize the vice chair.
    Mr. Carnahan. They might be welcome everywhere except St. 
Louis and the St. Louis Cardinals.
    Thank you all for being here. And I guess I wanted to hit a 
couple of things real quickly before we have to go to votes.
    First, I wanted to ask for the panel, the surveys of 1 
percent or so people actually getting the programming, how 
accurate do you think that is in terms of people responding to 
a survey admitting that they are listening to this programming? 
And are there any reports about reprisals against people that 
are receiving this kind of programming or information?
    Mr. Ford. Yeah, the surveys that we included in our report, 
the ones that we said were the best surveys because they are 
random surveys of individuals in Cuba who have telephones, of 
which, according to the IBB, approximately 17 percent of the 
households have listed telephone numbers, the contractor that 
does the surveys does a random sample of those phones 
throughout the entire country. They have been doing that type 
of a survey since 2003. They have done four of them. According 
to the information that they have reported, the issue of how 
comfortable was the respondent was included as part of the 
survey.
    And from 2005 and subsequent, 2006 and 2008, the surveys 
indicated about 6 percent of the respondents were ``fearful.'' 
The other 94 percent indicated that they were cooperative.
    Now, we don't know much more than that. So we don't really 
know what the 6 percent means and we don't know what the 94 
percent means. With regard to reprisals, at least in terms of 
the surveys, we didn't see any information indicating there 
were reprisals. But that doesn't mean that there weren't some. 
We just didn't have that information available.
    Mr. Peters. Congressman, I have never heard of any 
reprisals against anyone who has seen TV Marti, because I have 
never known of someone who has seen TV Marti. With regard to 
survey research in Cuba, I think it is a difficult proposition. 
And the chairman mentioned some of the organizations that have 
tried. Everybody that tries deserves credit for it. I am 
willing to stipulate that the telephone surveys are 
problematic, and maybe that you just don't get a good result 
because it is a country where people are not used to taking 
surveys that way. So I am willing to stipulate, we can just 
push them off the table.
    But, still, you are left with a TV station where you never 
hear anyone talking about anything that has been on the TV 
station, and where the dissidents, large numbers of them--
Congressman Flake was just here. I was at a dinner with him in 
2004 with a leading dissident. He asked her the question, 
``What about TV Marti?'' She said, ``You mean virtual TV 
Marti?''
    That answer comes up time and again, that it is just not 
seen. If you indulge me just a moment, Mr. Chairman, because on 
the subject of survey research, Mr. Mack brought something up 
earlier about Cubans who now are in the United States and live 
in freedom and say in high numbers, 17-20 percent, that they 
saw TV Marti when they were there. Well, I think there are 
problems with those surveys, too.
    I believe that if you look into the answer, what you will 
find is that these are surveys conducted by the Office of Cuba 
Broadcasting among recent arrivals, Cubans who have recently 
arrived. Now, these are Cubans who arrive, and they come to the 
United States, and they are living in hope that within a year 
they are going to get their permanent residency. And they have 
a package of government benefits that includes health care for 
a year, it includes employment assistance, it includes free 
English classes if they want to take classes to learn English 
at Miami Dade Community College. And that is where those 
surveys are taken.
    And I believe if you check into this, you will see it is--
speaking of contractors, an OCB contractor goes one evening to 
those English classes and goes to these folks, and they put on 
a buffet, and they pay them a little stipend, and they ask 
them--these are people from the government essentially--they 
ask them, well, did you ever see TV Marti? And, lo and behold, 
you got higher numbers in those surveys than anywhere ever with 
regard to TV Marti. You can draw your own conclusions, Mr. 
Chairman.
    Mr. Delahunt. I have.
    Mr. Carnahan. Speaking of contractors, that was my next 
line of questions that I know we are going to be very short on 
time for. With regard to the contracting of the AeroMarti, how 
many contractors are flying those planes now? Any estimate? Is 
this one guy in a plane flying around? Ten people? Do we have 
any idea?
    Mr. Ford. I was going to say they have two planes. They 
interchangeably use them. I am not sure exactly how many people 
they have in the plane.
    Mr. Delahunt. Who is the contractor?
    Mr. Ford. Lockheed Martin.
    Mr. Delahunt. Lockheed Martin?
    Mr. Carnahan. And there is just a single contractor that 
does that?
    Mr. Ford. I am not sure if they have a sub that actually 
flies the planes.
    Mr. Delahunt. I would like to have the sub identified for 
the committee.
    Mr. Carnahan. That was my next question, Mr. Chairman.
    Mr. Delahunt. That was a good line of questioning.
    Mr. Carnahan. And were these contractors selected on some 
kind of a competitive bid process?
    Mr. Nichols. I believe it was sole source. I would have to 
check, and I will correct the record if I am wrong, but I 
believe it is sole source because the specifications for the 
plane, there is only one company--what is it--the G-1, whatever 
the nomenclature is.
    Mr. Carnahan. If you could provide to the committee the 
information on the contractor and how--the competitive nature 
of the selection, and if there were any other companies 
involved, I think that would be instructive to the committee. 
And also in terms of the cost, I understand at some point 
previously this was done by government personnel and planes?
    Mr. Nichols. Yes, sir. Actually, I know a little bit more 
about this than I normally would. The Pennsylvania Air National 
Guard has got a psychological operations unit. And the plane 
was called Commando Solo, and would fly from Harrisburg down to 
the Straits of Florida and transmit from down there. That was--
--
    Mr. Delahunt. It is truly Mission Impossible, isn't it, 
Professor?
    Mr. Carnahan. And just my last question: Are there any cost 
comparisons between what we were paying for that versus the 
private contractors now?
    Mr. Nichols. You know, that is a very good question. I 
don't know the answer. But there has been mention of the costs 
of TV Marti. And those are appropriated costs as opposed to the 
indirect costs. And I don't believe that they include the 
substantial amount of money that the Navy spent on the blimp or 
that the Pennsylvania Air National Guard spent flying their 
entire weekends down to the Florida Keys.
    Mr. Carnahan. I am going to yield back my time for us to 
run to the Capitol.
    Mr. Delahunt. I thank the gentleman. I thank the panel. It 
has been instructive. And as I indicated, if people have some 
creative, thoughtful ideas, you know, I love the idea of 
scholarships and exchanges. And I think you really hit it on 
the head, Mr. Peters, when you talked about public diplomacy in 
the larger perspective. We can take this money, we can use it 
well, we can respect government employees, and we can 
accomplish much if, particularly as Ms. Richardson said, we 
have a collaborative and cooperative approach to the issue of 
people-to-people exchange.
    With that, we are adjourned. Thank you.
    [Whereupon, at 4:48 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>Minutes deg.

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Nichols material FTR deg.__

Material Submitted for the Record by John Nichols, Ph.D., Professor of 
    Communications and International Affairs, Penn State University

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
